               The Use of Anti-Money Laundering Referrals
               and Currency Transaction Information in the
               Income Tax Examination Process Could Be
                                Improved

                                    March 2004

                       Reference Number: 2004-30-074




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        March 30, 2004




       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - The Use of Anti-Money Laundering Referrals
                                      and Currency Transaction Information in the
                                      Income Tax Examination Process Could Be Improved
                                      (Audit # 200330012)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       use of Anti-Money Laundering (AML)1 Program referrals and currency transaction
       information in the income tax examination process. Our overall objective was to
       determine whether the IRS effectively used the referrals and information in that process.
       The Bank Secrecy Act (BSA)2 requires banks and nonbank financial institutions, such as
       check cashing businesses and casinos, to file information reports regarding significant
       currency transactions. Pursuant to 31 C.F.R. Section 103.56(b)(8) and Treasury
       Directive 15-41 (December 1, 1992), the authority to examine nonbank financial
       institutions for compliance with the reporting requirements of the BSA was delegated to
       the IRS. The IRS performs compliance checks of nonbank financial institutions as part
       of its AML Compliance Program.3 If during the performance of an AML compliance

       1
         The term “money laundering” refers to the activities and financial transactions that are undertaken specifically to
       hide the true source of the income.
       2
         Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
       15 U.S.C., and 31 U.S.C.). Regulations for the BSA, and other related statutes, are 31 C.F.R. § 103.11-103.77
       (2002). The Secretary of the Treasury has delegated the authority to administer Title II of the BSA to the Director
       of the Financial Crimes Enforcement Network.
       3
         The IRS is a partner in the nation’s AML efforts, whose goal is to increase compliance with AML laws and to
       identify, detect, and deter money laundering, whether it is in furtherance of a criminal enterprise, terrorism, tax
       evasion, or other unlawful activity.
                                                         2

check IRS examiners encounter large and suspicious currency transactions4 between
the businesses under examination and their customer(s), an AML referral is prepared.
AML referrals are forwarded to the Small Business/Self-Employed (SB/SE) Division
Planning and Special Programs (PSP) function for consideration as an income tax
examination.
Nationwide, income tax examinations based on AML referrals declined significantly in
2003. In the 3 Area Offices5 that we tested, income tax examinations based on AML
referrals declined 57 percent from June 2002 to June 2003. A key reason for this
decline was the refocusing of the IRS’ examination efforts on seven compliance
priorities beginning in mid-2002. AML referrals were not one of the seven priority areas.
In addition, AML referrals were not always comprehensively reviewed and selected for
examination. None of the 32 referrals we judgmentally sampled had evidence to
support that they were thoroughly reviewed for consideration for an income tax
examination. The 32 referrals each had $100,000 or more in documented suspicious
cash transactions, but were not selected for an income tax examination. Fourteen
(44 percent) of the 32 referrals involved taxpayers that did not file a tax return for the
period in which the suspicious cash activity occurred. The total documented suspicious
cash activity in the 32 referrals was $11 million.
We informed the IRS of our concerns regarding AML referrals in July 2003. Based on
this information, along with its own observations and ongoing concerns, the IRS has
already initiated a number of corrective actions. AML referrals were established as a
separate priority area for Fiscal Year (FY) 2004. In addition, draft procedures have
been prepared requiring that the disposition of referral reviews be documented and
referrals not selected for examination be maintained in searchable order for 26 months
from the date of review.
Currency transaction information reports from financial institutions, trades, and
businesses could also be more effectively used in the identification of taxpayers for
potential income tax examinations. These reports are included in the Currency Banking
Retrieval System (CBRS).6 The IRS estimates there were over 300,000 potential
nonfilers with $22 billion in currency transaction activity in Tax Year 2002. Although the
IRS revised its priority examination areas to include AML referrals for FY 2004, it still
does not consider all currency transaction information in the selection process. For
example, the selection of nonfiling taxpayers for examination is based on the amount of
known potential income, such as wages and dividends, and does not specifically
consider whether the taxpayer also has large amounts of cash activity. While the filing
of a currency transaction report may not equate to unreported income, the presence of

4
  Suspicious transactions include large cash deposits with inadequate records and any transaction that indicates the
correct amount of income may not be reported.
5
  The SB/SE Division Compliance Field function is geographically organized into 15 Area Offices serving taxpayers
nationwide and 1 Area Office serving international taxpayers.
6
  The CBRS is a system of databases operated by the Detroit Computing Center which contains Information Returns
required under 26 U.S.C., such as Reports of Cash Payments Over $10,000 Received in a Trade or Business
(Form 8300) and Currency Transaction Reports (Form 4789) required under 31 U.S.C. Chapter 53.
                                                       3

large transactions does indicate the individual deals in large amounts of cash and may
be involved in some type of ongoing business activity.
We recommended the Director, Centralized Workload Selection and Delivery, SB/SE
Division, develop a referral review checklist or other similar methodology to assist in
ensuring all relevant factors, including nonfiled tax returns, are considered in evaluating
AML referrals. We also recommended the Director, Centralized Workload Selection
and Delivery, SB/SE Division, begin using currency transaction information to aid in the
selection of individuals and businesses (both nonfilers and potential underreporters) for
income tax examinations.
Management’s Response: The IRS agreed with the recommendations presented in the
report. The Director, Centralized Workload Selection and Delivery, SB/SE Division, will
issue to the PSP Territory Managers written instructions with screening and
case-building procedures for AML referrals. Also, the IRS noted all field inventory that
is case-built by PSP function offices or the campus7 includes specific information to
ensure consistency in classification and selection. CBRS information for each taxpayer
is used during the classification and selection process. Field inventory is currently
case-built for training returns and all strategic priority inventory. In addition to using the
CBRS to supplement case file information, the Examination Return Selection function
has been using CBRS analysis as a source for identifying workload. Management’s
complete response to the draft report is included as Appendix IV.
Office of Audit Comment: Although SB/SE Division management agreed with our
recommendations, the proposed corrective action for Recommendation 2 does not fully
address the recommendation. The corrective action indicated does not specifically
provide for the consideration of CBRS information during the initial identification of
nonfiler inventory. Rather, the corrective action discusses the subsequent consideration
of CBRS information by classifiers in determining which of the selected cases should be
examined and references the general use of CBRS data as a source for identifying
workload. It is our opinion that the consideration of CBRS information in the initial
identification of nonfiler inventory will help ensure the best cases are provided to the
classifiers for examination consideration. As such, we believe our recommendation is
worthwhile in its entirety; however we do not intend to elevate our disagreement to the
Secretary of the Treasury for resolution.
Copies of this report are also being sent to IRS officials who are affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.


7
 A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
 The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
              the Income Tax Examination Process Could Be Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
Significantly Fewer Income Tax Examinations Are Being Initiated
As a Result of Anti-Money Laundering Program Referrals ........................ Page 3
Anti-Money Laundering Referrals Involving Significant Suspicious
Cash Transaction Activity Were Not Always Effectively Reviewed
and Selected for Examination.................................................................... Page 4
         Recommendation 1: ........................................................................ Page 6

Further Improvement Is Needed in Integrating Currency
Transaction-Related Information in the Examination Selection
Process ..................................................................................................... Page 6
         Recommendation 2: ........................................................................ Page 7

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 9
Appendix II – Major Contributors to This Report........................................ Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Management’s Response to the Draft Report .................... Page 13
  The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
               the Income Tax Examination Process Could Be Improved

                                 Businesses and individuals conduct numerous financial
Background
                                 transactions on a daily basis. To aid in the tracking of
                                 financial transactions and to help the Internal Revenue
                                 Service (IRS) ensure compliance with Federal tax laws, the
                                 Congress enacted the Bank Secrecy Act (BSA).1 The BSA
                                 requires the filing of information reports, by both banks and
                                 nonbank financial institutions such as check cashing
                                 businesses and casinos, regarding currency transactions
                                 exceeding $10,000. Internal Revenue Code (I.R.C.)
                                 Section (§) 6050I2 requires trades or businesses not
                                 previously covered by the BSA, such as automobile and
                                 boat dealerships, to also keep records and file reports
                                 regarding large transactions. These records and reports are
                                 critical to the detection of illegally obtained funds as they
                                 move through financial institutions in an effort to appear
                                 unrelated or untraceable to illegal activities, which is
                                 commonly called money laundering. These records are also
                                 useful as an indictor of potentially unreported income.
                                 Pursuant to 31 C.F.R. § 103.56(b)(8) and Treasury Directive
                                 15-41 (December 1, 1992), the authority to examine
                                 nonbank financial institutions for compliance with the
                                 reporting requirements of the BSA was delegated to the
                                 IRS. IRS examiners perform compliance checks of nonbank
                                 financial institutions as part of its Anti-Money Laundering
                                 (AML) 3 Compliance Program. These reviews seek to
                                 determine whether the businesses are complying with their
                                 obligations under the BSA to file information reports.




                                 1
                                   Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended
                                 in scattered sections of 12 U.S.C., 15 U.S.C., and 31 U.S.C.).
                                 Regulations for the BSA, and other related statutes, are 31 C.F.R.
                                 § 103.11-103.77 (2002). The Secretary of the Treasury has delegated
                                 the authority to administer Title II of the BSA to the Director of the
                                 Financial Crimes Enforcement Network.
                                 2
                                   26 U.S.C. § 6050I (1984), returns relating to cash received in a trade or
                                 business.
                                 3
                                   The IRS is a partner in the nation’s AML efforts, whose goal is to
                                 increase compliance with AML laws and to identify, detect, and deter
                                 money laundering, whether it is in furtherance of a criminal enterprise,
                                 terrorism, tax evasion, or other unlawful activity.

                                                                                                   Page 1
The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
             the Income Tax Examination Process Could Be Improved

                               During these reviews, examiners may encounter large and
                               suspicious4 currency transactions between the businesses
                               under examination and their customers. If so, the examiner
                               is required to prepare an AML referral, which is forwarded
                               to the Small Business/Self-Employed (SB/SE) Division
                               Planning and Special Programs (PSP) function. The PSP
                               function is responsible for evaluating referrals for potential
                               selection of individuals and businesses for an income tax
                               examination.
                               In addition to receiving information from AML referrals, the
                               IRS has access to the Currency Banking Retrieval System
                               (CBRS)5 records of currency transactions from both bank
                               and nonbank financial institutions. CBRS information can
                               be useful in identifying cash activity that may not be
                               accurately reported on the income tax return. In addition, it
                               may lead the income tax examiner to discover sources of
                               unreported income, sometimes derived from illegal activity.
                               This review was performed at the SB/SE Division
                               Headquarters in New Carrollton, Maryland, and in the
                               New York, New York; Los Angeles, California; and
                               Philadelphia, Pennsylvania, SB/SE Division Area Offices.6
                               We performed the audit from May through December 2003
                               in accordance with Government Auditing Standards.
                               Detailed information on our audit objective, scope, and
                               methodology is presented in Appendix I. Major
                               contributors to the report are listed in Appendix II.




                               4
                                 Suspicious transactions include large cash deposits with inadequate
                               records and any transaction that indicates the correct amount of income
                               may not be reported.
                               5
                                 The CBRS is a system of databases operated by the Detroit Computing
                               Center which contains Information Returns required under 26 U.S.C.,
                               such as Reports of Cash Payments Over $10,000 Received in a Trade or
                               Business (Form 8300) and Currency Transaction Reports (Form 4789)
                               required under 31 U.S.C. Chapter 53.
                               6
                                 The SB/SE Division Compliance Field function is geographically
                               organized into 15 Area Offices serving taxpayers nationwide and 1 Area
                               Office serving international taxpayers.
                                                                                              Page 2
   The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
                the Income Tax Examination Process Could Be Improved

                                  The purpose of AML Program compliance checks is to
Significantly Fewer Income Tax
                                  ensure entities, such as check cashing companies, comply
Examinations Are Being
                                  with their obligation to file information reports regarding
Initiated As a Result of
                                  currency transactions. When unusual cash activity
Anti-Money Laundering
                                  regarding a particular individual or business is identified
Program Referrals
                                  during an AML compliance check, an AML referral for the
                                  initiation of a potential income tax examination is prepared.
                                  In the 3 Area Offices included in our review, income tax
                                  examinations based on referrals from the AML Program
                                  compliance checks declined 57 percent in 1 year, from
                                  321 active examinations in June 2002 to 139 in June 2003.
                                  In the 3 Area Offices, 1,314 referrals were submitted for
                                  consideration during this period. Nationwide, income tax
                                  examinations that were the result of AML referrals declined
                                  47 percent during the same period.
                                  A key reason for the decline in income tax examinations
                                  based on referrals from AML compliance checks was the
                                  refocusing of the IRS’ examination priorities in 2002.
                                  Specifically, in July 2002, the IRS Commissioner presented
                                  seven new compliance priority areas and noted that Tax
                                  Year (TY) 2003 would be a year of transition. As existing
                                  examination inventories were closed, new workloads were
                                  to be assigned within one of the following priority areas:
                                     •   Abusive tax schemes and promoter investigations.
                                     •   Misuse of devices, such as offshore accounts, to hide
                                         or improperly reduce income.
                                     •   Abusive corporate tax avoidance transactions.
                                     •   High-risk, high-income individuals.
                                     •   Offshore credit card abuses.
                                     •   Unreported Income Discriminate Index Function.
                                     •   The National Research Program.
                                  Integrating income tax examinations of AML referrals into
                                  the new priority-based approach, however, was sometimes
                                  problematic. While AML referrals are useful as indictors of
                                  potentially unreported income, they generally do not contain
                                  enough detailed information to allow them to be easily
                                  associated with one of the particular examination priorities.

                                                                                         Page 3
     The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
                  the Income Tax Examination Process Could Be Improved

                                    In addition, referrals that could not be readily associated
                                    with a specific strategic priority were to be forwarded to the
                                    Brookhaven Campus7 for further review. The IRS informed
                                    us the review of referrals that could not be associated with a
                                    specific priority was delayed due to other priority work. At
                                    the time of our review, the Brookhaven Campus had a
                                    significant backlog of referrals awaiting review.
                                    We informed the IRS of our concerns regarding the AML
                                    referral program in July 2003. Based on this information,
                                    along with its own observations and ongoing concerns, the
                                    IRS initiated a number of corrective actions. Specifically:
                                        •   The AML Compliance Program was established as a
                                            separate priority area for Fiscal Year (FY) 2004.
                                        •   Draft procedures were prepared designating Area
                                            Office PSP AML Coordinators as responsible for
                                            selecting AML referrals for examination in
                                            conjunction with the AML Compliance Program.
                                    Controls over the review and evaluation of AML referrals
Anti-Money Laundering
                                    need to be improved. From the 3 Area Offices included in
Referrals Involving Significant
                                    our review, we judgmentally sampled 32 referrals, each
Suspicious Cash Transaction
                                    involving $100,000 or more in suspicious cash transactions,
Activity Were Not Always
                                    which had not been selected for an income tax examination.
Effectively Reviewed and Selected
                                    We determined that all had indicators of examination
for Examination
                                    potential, but the case files did not document why the
                                    32 referrals were not selected. In fact, we could not even
                                    determine whether the referrals had been reviewed by the
                                    PSP function. The sampled referrals were submitted for
                                    consideration during the period January 2002 through
                                    June 2003.
                                    The 32 referrals had $11 million in documented suspicious
                                    cash activity. The referrals included the following
                                    information, which indicates that the taxpayers may not
                                    have reported of all their income:
                                        •   Fourteen of the 32 referrals involved taxpayers that
                                            did not file a tax return for the period in which the

                                    7
                                     A campus is the data processing arm of the IRS. The campuses
                                    process paper and electronic submissions, correct errors, and forward
                                    data to the computing centers for analysis and posting to taxpayer
                                    accounts.
                                                                                                    Page 4
The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
             the Income Tax Examination Process Could Be Improved

                                      suspicious cash activity occurred. In 1 of the
                                      14 referrals, the taxpayer also made substantial
                                      mortgage payments.
                                  •   Twenty-six of the 32 referrals involved businesses
                                      which negotiated checks totaling $7 million for cash
                                      at check cashing companies or liquor stores rather
                                      than depositing the checks in a business bank
                                      account. The businesses included construction,
                                      trucking, and garment companies.
                                  •   Six of the referrals involved businesses and
                                      individuals that made cash purchases of telephone
                                      calling cards from telecommunication companies.
                                      The cash purchases totaled $3 million.
                               AML-related referrals are required to be reviewed within
                               30 days of receipt to determine whether there is sufficient
                               basis to warrant an income tax examination. This review is
                               required to include a check for unfiled tax returns. PSP
                               function managers informed us their primary focus is the
                               assignment of new workload within the seven compliance
                               strategy areas as outlined by the IRS Commissioner in
                               mid-2002. A case would usually not be selected if it did not
                               meet one of the seven priority areas. As discussed
                               previously, AML referrals were not specifically identified as
                               one of the seven original priority areas and were often not
                               easily associated with a priority area.
                               AML referrals contain indicators of suspicious cash activity
                               that may be indicative of unreported income and, if not
                               timely and comprehensively reviewed, could have a
                               material effect on the IRS’ taxpayer compliance efforts.
                               Two of the three PSP function offices we reviewed also
                               informed us they routinely dispose of AML referrals that are
                               not selected for an income tax examination. In addition,
                               none of the three Area Offices keep sufficiently detailed
                               records to determine how many referrals were forwarded to
                               a campus. As a result, we could not readily determine the
                               disposition of 1,861 (87 percent) of the 2,144 AML referrals
                               submitted from January 2002 through June 2003 at the
                               3 Area Offices.
                               We informed the IRS of our concerns regarding the AML
                               referrals in July 2003. Based on this information along with
                                                                                     Page 5
    The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
                 the Income Tax Examination Process Could Be Improved

                                   its own observations and ongoing concerns, the IRS has
                                   already prepared draft procedures requiring that the
                                   disposition of referral reviews be documented and referrals
                                   not selected for examination be maintained in searchable
                                   order for 26 months from the date of review. While the new
                                   procedures should result in better record retention practices,
                                   additional case file documentation is needed to ensure all
                                   required factors, including nonfiled tax returns, are
                                   considered in evaluating AML referrals.

                                   Recommendation

                                   1. The Director, Centralized Workload Selection and
                                      Delivery, SB/SE Division, should develop a referral
                                      review checklist or other similar methodology to assist
                                      in ensuring all required factors, including nonfiled tax
                                      returns, are considered in evaluating AML referrals.
                                   Management’s Response: The Director, Centralized
                                   Workload Selection and Delivery, SB/SE Division, will
                                   issue to the PSP Territory Managers written instructions
                                   with screening and case-building procedures for AML
                                   referrals. The IRS has already provided draft procedures for
                                   screening referrals to the PSP Territory Managers for
                                   implementation.
                                   Currency transaction information from Currency
Further Improvement Is Needed
                                   Transaction Reports (Form 4789)8 and Reports of Cash
in Integrating Currency
                                   Payments Over $10,000 Received in a Trade or Business
Transaction-Related Information
                                   (Form 8300)9 could be more effectively used in the
in the Examination Selection
                                   identification of taxpayers for income tax examinations.
Process
                                   These documents are included in the CBRS.
                                   As discussed previously, the IRS revised its priority
                                   examination areas to include AML referrals for FY 2004.
                                   Additionally, an addendum to the FY 2004 priorities, known
                                   as the substantial noncompliance factors, was developed.
                                   This document provides that a case with significant civil tax
                                   potential should still be considered for examination even

                                   8
                                     31 C.F.R. § 103.22 requires most financial institutions to file
                                   Form 4789 when receiving or disbursing cash in excess of $10,000.
                                   9
                                     I.R.C. § 6050I requires that any person engaged in a trade or business
                                   that receives cash in excess of $10,000 in 1 transaction, or 2 or more
                                   related transactions, must file Form 8300.
                                                                                                    Page 6
The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
             the Income Tax Examination Process Could Be Improved

                               though it does not specifically fall within a priority area.
                               This approach, for example, expands the FY 2003 nonfiler
                               priority area, which previously focused only on nonfilers
                               with known sources of income such as wages and dividends
                               over a certain dollar amount. The factors now include cases
                               with less than the designated dollar amount in known
                               income, if there is a significant potential for civil tax.
                               However, while it is a worthwhile enhancement, the strategy
                               addendum relies primarily on referrals and informant
                               claims10 in evaluating the possibility of substantial tax
                               potential on a tax return. Neither the selection criteria for
                               the priority areas nor the recently added substantial
                               noncompliance factors addendum specifically consider
                               currency transaction information from the CBRS in the
                               examination selection process.
                               While the filing of a Form 4789 or 8300 may not equate to
                               unreported income, the presence of large transactions does
                               indicate the individual deals in large amounts of cash and
                               may be involved in some type of ongoing business activity.
                               The IRS informed us it estimates there were over
                               300,000 potential nonfilers with $22 billion in currency
                               transaction activity in TY 2002.11 Including currency
                               transaction activity in the return selection process would
                               help ensure the IRS selects the best returns possible for
                               examination and improve compliance with tax laws.

                               Recommendation

                               2. The Director, Centralized Workload Selection and
                                  Delivery, SB/SE Division, should begin using currency
                                  transaction information to aid in the selection of
                                  individuals and businesses (both nonfilers and potential
                                  underreporters) for income tax examinations. The
                                  selection process should focus on those individuals with
                                  a large dollar amount of transactions.
                               Management’s Response: All field inventory that is
                               case-built by PSP function offices or the campus includes


                               10
                                  Unsolicited information, regarding alleged tax law violations, that is
                               received via telephone calls, office visits, and correspondence.
                               11
                                  Unvalidated data provided by the IRS.
                                                                                                  Page 7
The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
             the Income Tax Examination Process Could Be Improved

                               specific information to ensure consistency in classification
                               and selection. CBRS information for each taxpayer is used
                               during the classification and selection process. Field
                               inventory is currently case-built for training returns and all
                               strategic priority inventory. In addition to using the CBRS
                               to supplement case file information, the Examination Return
                               Selection function has been using CBRS analysis as a
                               source for identifying workload.
                               Office of Audit Comment: Although SB/SE Division
                               management agreed with our recommendations, the
                               proposed corrective action for Recommendation 2 does not
                               fully address it. The corrective action indicated does not
                               specifically provide for the consideration of CBRS
                               information during the initial identification of nonfiler
                               inventory. Rather, the corrective action discusses the
                               subsequent consideration of CBRS information by
                               classifiers in determining which of the selected cases should
                               be examined and references the general use of CBRS data as
                               a source for identifying workload. It is our opinion that the
                               consideration of CBRS information in the initial
                               identification of nonfiler inventory will help ensure the best
                               cases are provided to the classifiers for examination
                               consideration. As such, we believe our recommendation is
                               worthwhile in its entirety.




                                                                                      Page 8
      The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
                   the Income Tax Examination Process Could Be Improved

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether currency transaction information
and Anti-Money Laundering (AML) 1 Program referrals were effectively used in the income tax
examination process. To accomplish this objective, we:
I.        Determined whether the Small Business/Self-Employed (SB/SE) Division’s Compliance
          function Headquarters (HQ) effectively provided oversight and monitored referrals from
          the AML Program.
          A. Interviewed AML and SB/SE Division Planning and Special Programs (PSP) HQ
             management to discuss and review the process for monitoring referrals from the AML
             Program.
          B. Identified Management Information System data that Area Offices2 forward to the HQ
             regarding the AML Program.
          C. Evaluated the methodology employed at the national level and determined the
             effectiveness of income tax examinations of AML referrals.
II.       Determined whether the SB/SE Division Examination function had effective controls
          over the evaluation of referrals received from the AML Program.
          A. Interviewed HQ and selected Area Office PSP function management and determined
             what procedures were employed to identify, classify, and examine taxpayers with
             referrals received from the AML Program.
          B. Interviewed three Area Office AML Coordinators to determine if referrals were
             screened or prioritized for potential income tax examination. We selected the three
             audit sites for the work in this audit step, as well as C and D below, because we were
             advised they were representative of the AML Program nationwide.
          C. Interviewed three AML group managers on the policies and procedures for preparing
             and forwarding referrals to the PSP function.
          D. Selected a judgmental sample of 32 referrals having over $100,000 in cash activity
             that were not selected for examination and evaluated the reason they were not
             selected. We used this sampling methodology to allow for the onsite review of
             referral case files within the constraints of our available staffing. The cases were

1
  The Internal Revenue Service is a partner in the nation’s AML efforts, whose goal is to increase compliance with
AML laws and to identify, detect, and deter money laundering, whether it is in furtherance of a criminal enterprise,
terrorism, tax evasion, or other unlawful activity.
2
  The SB/SE Division Compliance Field function is geographically organized into 15 Area Offices serving taxpayers
nationwide and 1 Area Office serving international taxpayers.
                                                                                                           Page 9
    The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
                 the Income Tax Examination Process Could Be Improved

            chosen from the inventory of all cases physically located in the selected offices at the
            time of our review. However, because two of the three sites frequently disposed of
            nonselected referrals, we were unable to reliably establish the case population.
III.    Determined whether the Examination function had effective controls over the
        identification and examination of taxpayers having Currency Banking Retrieval System
        (CBRS)3 information on file.
        A. Interviewed selected field personnel and determined the methodology used in
           identifying tax returns with CBRS data on file.
        B. Ascertained whether examiners were required to research the CBRS for information
           as part of the examination case-building process.
IV.     Determined whether the HQ used CBRS information to identify nonfilers.
        A. Interviewed HQ PSP function personnel and determined how CBRS information was
           used in the SB/SE Division’s high-income nonfiler strategy.
        B. Determined to what extent high-income nonfilers with Currency Transaction Report
           records on file with the CBRS were considered for examination.




3
 The CBRS is a system of databases operated by the Detroit Computing Center which contains Information Returns
required under 26 U.S.C., such as Reports of Cash Payments Over $10,000 Received in a Trade or Business
(Form 8300) and Currency Transaction Reports (Form 4789) required under 31 U.S.C. Chapter 53.




                                                                                                      Page 10
  The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
               the Income Tax Examination Process Could Be Improved

                                                                                 Appendix II


                           Major Contributors to This Report

Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Anthony J. Choma, Audit Manager
Doris A. Cervantes, Senior Auditor
Joseph F. Cooney, Senior Auditor
Rashme Sawhney, Auditor




                                                                                       Page 11
  The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
               the Income Tax Examination Process Could Be Improved

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Deputy Director, Compliance Policy, Small Business/Self-Employed Division
       SE:S:C:CP




                                                                                   Page 12
The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
             the Income Tax Examination Process Could Be Improved

                                                                      Appendix IV


                 Management’s Response to the Draft Report




                                                                            Page 13
The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
             the Income Tax Examination Process Could Be Improved




                                                                            Page 14
The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
             the Income Tax Examination Process Could Be Improved




                                                                            Page 15
